<html>
<title> - THE GREEN ROAD TO ECONOMIC RECOVERY</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Publishing Office]



                                 ______
 
                  THE GREEN ROAD TO ECONOMIC RECOVERY

=======================================================================

                                HEARING

                               before the
                          SELECT COMMITTEE ON
                          ENERGY INDEPENDENCE
                           AND GLOBAL WARMING
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 18, 2008

                               __________

                           Serial No. 110-49


             Printed for the use of the Select Committee on
                 Energy Independence and Global Warming

                        globalwarming.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
61-959                    WASHINGTON : 2010
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="1275627d52716761667a777e623c717d7f3c">[email&#160;protected]</a>  

                SELECT COMMITTEE ON ENERGY INDEPENDENCE
                           AND GLOBAL WARMING

               EDWARD J. MARKEY, Massachusetts, Chairman
EARL BLUMENAUER, Oregon              F. JAMES SENSENBRENNER, Jr., 
JAY INSLEE, Washington                   Wisconsin, Ranking Member
JOHN B. LARSON, Connecticut          JOHN B. SHADEGG, Arizona
HILDA L. SOLIS, California           GREG WALDEN, Oregon
STEPHANIE HERSETH SANDLIN,           CANDICE S. MILLER, Michigan
  South Dakota                       JOHN SULLIVAN, Oklahoma
EMANUEL CLEAVER, Missouri            MARSHA BLACKBURN, Tennessee
JOHN J. HALL, New York
JERRY McNERNEY, California
                                 ------                                

                           Professional Staff

                    Gerard J. Waldron Staff Director
                       Aliya Brodsky, Chief Clerk
                 Thomas Weimer, Minority Staff Director
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hon. Edward J. Markey, a Representative in Congress from the 
  Commonwealth of Massachusetts, opening statement...............     1
    Prepared statement...........................................     3
Hon. F. James Sensenbrenner, Jr., a Representative in Congress 
  from the State of Wisconsin, opening statement.................     5
Hon. Jay Inslee, a Representative in Congress from the State of 
  Washington, opening statement..................................     6
Hon. Greg Walden, a Representative in Congress from the State of 
  Oregon, opening statement......................................     7
Hon. Hilda Solis, a Representative in Congress from the State of 
  California, opening statement..................................     7
Hon. Emanuel Cleaver, II, a Representative in Congress from the 
  State of Missouri, opening statement...........................     8
    Prepared statement...........................................     9
Hon. Jerry McNerney, a Representative in Congress from the State 
  of California, opening statement...............................    10
Hon. Marsha Blackburn, a Representative in Congress from the 
  State of Tennessee, prepared statement.........................    11

                               Witnesses

Mr. Bracken Hendricks, Senior Fellow, Center for American 
  Progress.......................................................    13
    Prepared Statement...........................................    17
Robert Pollin, Ph.D., Professor of Economics and Co-Director, 
  Political Economy Research Institute, University of 
  Massachusetts Amherst..........................................    32
    Prepared statement...........................................    35
    Answers to submitted questions...............................   123
Fred Redmond, International Vice President, United Steelworkers..    45
    Prepared statement...........................................    47
Byron Kennard, Executive Director, The Center for Small Business 
  and the Environment............................................    50
    Prepared statement...........................................    52
    Answers to submitted questions...............................   128
Margo Thorning, Ph.D., Senior Vice President and Chief Economist, 
  American Council for Capital Formation.........................    61
    Prepared statement...........................................    99
    Submitted for the Record: Analysis of the Lieberman-Warner 
      Climate Security Act (S. 2191) Using The National Energy 
      Modeling System (NEMS/ACCF/NAM), a report by the American 
      Council for Capital Formation and the National Association 
      of Manufacturers and analysis conducted by Science 
      Applications International Corporation (SAIC)..............    63

                           Submitted Material

Robert Pollin article entitled How to End the Recession in The 
  Nation on November 24, 2008....................................   134
Robert Pollin and Heidi Garret-Peltier article from the 
  University of Massachusetts, Amherst entitled The U.S. 
  Employment Effects of Military and Domestic Spending Priorities 
  on October 2007................................................   137


                  THE GREEN ROAD TO ECONOMIC RECOVERY



                      THURSDAY, SEPTEMBER 18, 2008

                  House of Representatives,
            Select Committee on Energy Independence
                                        and Global Warming,
                                                    Washington, DC.
    The committee met, pursuant to call, at 1:33 p.m., in Room 
2175, Rayburn, Hon. Edward J. Markey [chairman of the 
committee] presiding.
    Present: Representatives Markey, Blumenauer, Inslee, Solis, 
Herseth Sandlin, Cleaver, Hall, McNerney, Sensenbrenner, 
Walden, and Miller.
    The Chairman. This hearing is called to order.
    The United States is in an economic tailspin. Earlier this 
week, Alan Greenspan characterized the situation as a once-in-
a-century crisis and predicted that we are on the verge of 
recession. The markets are reeling. The Wall Street titans are 
collapsing, and home values have plummeted. Worst of all for 
American families, unemployment has soared to its highest level 
in 5 years with 84,000 jobs lost in August and 605,000 jobs 
lost since the beginning of this year.
    To set the economy right, we will have to take bold action 
on many fronts. We must restore oversight, transparency and 
prudence in the financial markets. We must strengthen the 
dollar and reform our trade policy. And we must forge a new 
energy strategy, one that will finally release us from big 
oil's strangle hold and ignite an energy technology revolution 
and put America back to work. ``Change, baby, change'' must be 
our mantra if we are going to successfully work to restore 
America to strength and prosperity.
    Speedy adoption of a green stimulus package is a crucial 
first step. A recent study from the Center for American 
Progress and the Political Economy Research Institute shows 
that by investing $100 billion in greening our buildings, 
expanding our mass transit, building a smart electrical grid 
and supporting wind and solar power and advanced biofuels, we 
can create 2 million new jobs. The green investment package 
they propose creates more jobs, better paying jobs than they 
would at the same level of spending on consumer rebates. It 
creates four times as many jobs as the same level of investment 
in the oil and gas industry. At the same time, it will save 
American consumers billions in energy costs and slash global 
warming pollution.
    In States all across the country, from California, from 
Michigan to Ohio, the clean energy industry is already among 
the leaders in job creation. In my home State of Massachusetts, 
cleantech is already the 10th largest industry, and it is 
projected to grow to third in the next 10 years.
    Energy technology or ET, as Thomas Friedman has called it, 
is all we need with the right policies to strike the spark. We 
have begun to make this change a reality by passing the Energy 
Independence and Security Act last December and the 
Comprehensive Energy Security and Consumer Protection Act 
earlier this week. The legislation passed in the House this 
week establishes a comprehensive energy policy that includes, 
among other things, tax credits for wind and solar power, a 
national renewable electricity standard, aggressive building 
efficiency standards and increased funding for mass transit, 
green buildings and home energy assistance for low-income 
households. Extending the renewable energy tax credits alone 
will save 116,000 American jobs and $19 billion in investment.
    We must now take the next step with a targeted set of 
investments that will put Americans back to work, retrofitting 
our buildings to save energy, greening the grid, training 
workers for green jobs and building the fuel-efficient cars of 
the future right here in America. These measures are a down 
payment on building America's energy economy, the future first 
steps toward economic recovery. These are those critical first 
steps.
    The greatest long-term challenges, however, are also going 
to be dealt with at the same time--America's economy and 
national security--that is, freeing us from dependence on 
foreign energy sources and combatting global warming.
    We have an excellent panel of witnesses who will be able to 
discuss all of these issues for us. We look forward to their 
testimony, and I will turn to recognize the ranking member of 
the committee, the gentleman from Wisconsin, Mr. Sensenbrenner.
    [The prepared statement of Mr. Markey follows:]

    [GRAPHIC] [TIFF OMITTED] T1959A.001
    
    [GRAPHIC] [TIFF OMITTED] T1959A.002
    
    Mr. Sensenbrenner. Thank you very much, Mr. Chairman.
    Not often do I cite the words of Democratic politicians, 
but much of the testimony submitted for today's hearing reminds 
me of the words of former President Harry Truman, who once 
said, quote, ``give me a one-handed economist; all my others 
say, `on one hand and on the other.' ''
    There is a lot of speculation on how so-called green jobs 
will boost the U.S. economy, which, given the recent news is 
clearly struggling. Any new jobs are good for the economy, 
green or not. Jobs that can transform our energy economy are 
especially good jobs.
    The question isn't whether green jobs are good or not. The 
question is whether a program to promote green jobs is the 
tonic our ailing economy needs. I agree with the testimony of 
one of our witnesses who says that any government efforts to 
shore up the economy have to start with stabilizing housing 
prices and strengthening the financial system.
    Margo Thorning, who is the senior vice president and chief 
economist for the American Council of Capital Formation advises 
Congress to allow time for recent actions by the Federal 
Reserve Board and the U.S. Treasury to take effect before 
putting more taxpayer dollars at risk. I agree, and I am 
especially concerned about Congress putting more taxpayer 
dollars on the line. As Ms. Thorning points out, one proposal 
supported by some here today requires $100 billion from the 
Federal Government to help create those so-called green jobs. I 
share her skepticism about this report, particularly since this 
proposal relies on higher taxes or deficit spending as a means 
to pay for these government-supported job programs. Taken from 
either hand, that is a bad idea.
    Some of the witnesses today will say this perpetual revenue 
stream will come from the legislative proposal called ``cap and 
trade.'' But I call it ``cap and tax'' because I call them like 
I see them. Cap and tax failed miserably in the Senate earlier 
this year, primarily because it was clear that it would raise 
both energy prices and taxes. Higher taxes won't pull us out of 
the economic malaise that we are in. In fact, it will stall the 
economy even more.
    A recent report from Ms. Thorning's group, the American 
Council for Capital Foundation, shows exactly what we can 
expect from cap and tax: as many as 1.8 million jobs lost by 
the year 2020; up to $1.46 a gallon rise in gas prices; and 
potentially more than 100 percent jump in electricity and 
natural gas prices. All, at the same time, while there are no 
such price increases in economic competitors like China, India 
and Brazil.
    This does not sound like a formula for economic recovery in 
America. Unfortunately, the House Democratic leadership missed 
its chance this week to help lower energy prices, and that 
would have been a big help to our ailing economy. But instead 
of opening the vital new energy resources our economy needs, 
the House leadership passed a sham energy bill that keeps most 
of our energy resources under lock and key. By keeping the 50-
mile ban on offshore drilling, the bill keeps 88 percent of 
offshore oil and gas reserves off the table forever. By leaving 
out nuclear and clean coal technology, the bill doesn't advance 
key low-emission energy technologies which are vital if we are 
to confront climate change without damaging the economy.
    However, it would be unfair to say this legislation won't 
help create new jobs. By keeping lawsuit reform out of the 
bill, there will be plenty of opportunity for the trial lawyers 
to sue any company that tries to find new domestic energy 
resources. If that is a green job, I think that this sham of an 
energy bill will produce plenty of them. But I don't believe it 
is going to help the economy at all.
    As we hear today, economists will have many different ideas 
of what will and won't improve the economy. As the Irish 
playwright George Bernard Shaw once said, ``if all the 
economists were laid end to end, they still would not reach a 
conclusion.'' That said, it doesn't take an economist for me to 
conclude that higher taxes and more regulation are not the 
answer for our ailing economy.
    And I thank the chairman and yield back the balance of my 
time.
    The Chairman. I thank the gentleman. Mr. Sensenbrenner and 
I are both lawyers if any economists want to retaliate.
    Mr. Sensenbrenner. Will the gentleman yield?
    The Chairman. I will be glad to.
    Mr. Sensenbrenner. Only half the lawyers lose their case.
    The Chairman. We are keeping this in the jocular vein.
    The Chair recognizes the gentleman from Washington State, 
Mr. Inslee.
    Mr. Inslee. Thank you.
    I am really looking forward to the panel.
    I do want to welcome Bracken Hendricks, who is a friend.
    And I just want to comment, just to set the stage for the 
discussion, Bracken co-authored a book about a year ago, and he 
talked about three companies that were in just kind of early 
stages of development. And I want to comment about something 
that happened in the last couple of months.
    One, he wrote about General Motors thinking about building 
a plug-in hybrid car and thought that this gave America great 
job-creating potential to create the new nongasoline powered 
car. Yesterday, General Motors, a day before Bracken shows up, 
rolled out their version of their plug-in hybrid, the GM Volt. 
That is a prediction that seems to be coming to pass.
    A year ago, in Bracken's book, he wrote about the Ausra 
company that was developing a solar thermal technology that 
could use thermal energy to heat a liquid and basically create 
steam-based electricity. I note that, last month, the Ausra 
company opened up the first solar thermal manufacturing plant 
in Nevada, hiring hundreds of workers in Nevada. That 
prediction is coming to pass.
    He wrote about a company called MagnaDrive that was in the 
early stages of building this transmission system that makes an 
electrical motor 70 percent more energy efficient. I went and 
visited their new headquarters in Washington where they are 
hiring at least dozens of people, and they are shipping their 
products to China. That prediction is coming to pass.
    And I think those who have said for some time that this is 
a great economic opportunity are now seeing those predictions 
come to pass, and I look forward to the wisdom from this panel 
about how we can accelerate that.
    Thank you.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentleman from Oregon.
    Mr. Walden. Thank you very much, Mr. Chairman.
    And coming from a region that is home to extraordinary 
opportunities for renewable energy, I welcome the panel and 
look forward to hearing more about not only what can be done to 
develop green jobs and green energy, but what can be done 
through the marketplace to do that so we can minimize the 
taxpayer support to get some of these industries up and 
running. Because it is no secret that this government is under 
great strain and stress, as are many of--anybody out there in 
the capital side trying to find credit right now. And, you 
know, the window is going to close, and these subsidies can't 
go on forever.
    As much as we want to transition off of the hydrocarbon 
fuels, we also need to access them in the meantime. So I would 
like to see us have a little different strategy where we use 
the revenue generated from the sale of domestic oil and gas, 
to, A, create jobs and, B, invest in this transition period 
rather than end up with higher taxes and all of that, because I 
think consumers are taking it in the wallet now; they can't 
afford to take it anymore. The government is in debt up to its 
ears and beyond. And these industries can't be subsidized 
forever.
    So I am willing to do it, to invest in research and get 
things going, but it can't be permanent.
    Mr. Chairman, I will yield back the balance of my time 
because I know we have other members who want to speak. And I 
will yield back, Mr. Chairman.
    The Chairman. The gentleman's time has expired.
    The Chair recognizes the gentlelady from California.
    Ms. Solis. Thank you, Chairman Markey.
    And I want to thank the witnesses for being here.
    I will be very brief. When it comes to green car jobs, I 
get so excited because I realize how our economic situation 
over the last few years has suffered so greatly. We lost so 
many manufacturing jobs to trade deals, to different things 
that have gone on in the U.S. for the last few years. And I am 
excited that we know that we can create these jobs, viable jobs 
that could sustain a family, allow them to have a part of that 
American dream, but keep those jobs here. I mean, that is 
something that we are not talking up enough. The reality is 
most of those manufacturing jobs left Mexico, and they went 
farther into Indonesia, China and everywhere else and India. 
Now we have to come back and be a competitive force.
    So I just want to say this is an exciting opportunity to 
start a green revolution that will hopefully bring everybody, 
stakeholders, all of them to the table. And I am also talking 
about those people who have traditionally been left out of 
environmental topics and issues. And those are people of color, 
hardworking-class folks, blue-collar people who now may have a 
chance to get retooled, reeducated and hopefully brought into 
an arena where they can also see a career ladder and hopefully 
at the end of the day be able to sustain their lifestyles, the 
American lifestyles that we all want to achieve here for the 
next few years and decade.
    So with that, I yield back the balance of my time.
    The Chairman. The gentlelady's time has expired.
    The Chair recognizes the gentleman from Missouri, Mr. 
Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Dan Quayle is--I like him. It may surprise some, primarily 
because his grandfather was a renowned Methodist Bishop. There 
are churches and buildings on college campuses all over 
Oklahoma and Kansas named Quayle. Quayle United Methodist 
churches all over. And his grandfather was profound.
    Now, the Vice President didn't quite get the profundities 
that his grandfather had. And so, in a speech, as he was trying 
to quote the model of the United Negro College Fund, which is 
``a mind is a terrible thing to waste,'' the Vice President 
said, ``it is a terrible thing when a man loses his mind.'' I 
actually agree with Vice President Quayle.
    And I would like to take a twist on that. I would say, a 
crisis is a terrible thing to waste. We are in the biggest 
crisis probably in our lifetimes. And it would be tragic indeed 
if we allowed this crisis to pass without getting something out 
of it, without coming out on the other side better than we were 
when we entered.
    And that brings us to this whole question of trying to 
revamp the U.S. economy. The Center for American Progress says 
that there is a possibility of creating as many as 2 million 
jobs and within 2 years if the United States would put forth 
the resources into replacing the conventional fossil fuels, 
coal and so forth, and with new sources of energy. And it 
should be, I think, a great opportunity for us to handle a 
crisis in a manner that we are better than when we entered. I 
actually had some more Quayle quotes, but we don't have the 
time for me to use them to dramatize my commitment to this 
issue.
    I yield back.
    [The prepared statement of Mr. Cleaver follows:]

    [GRAPHIC] [TIFF OMITTED] T1959A.003
    
    The Chairman. I thank the gentleman.
    The gentleman from California, Mr. McNerney.
    There are approximately 3 minutes to go on the roll call on 
the House floor. I am going to leave it to the gentleman to 
recess this hearing until after the four roll calls on the 
House floor. We are going to have to go over and make the roll 
calls and then come back and reconvene the hearing.
    I yield to the gentleman.
    Mr. McNerney [presiding]. Thank you, Mr. Chairman. I am 
glad you didn't say 3 seconds.
    I don't have much. I am very excited about the opportunity. 
I spent my career developing wind energy technology. I know it 
is fun. I know it is exciting. I know it creates jobs. It is 
clean and good for our economy. And for every dollar we invest 
in it, we get three to five times as many jobs as we get if we 
invest in oil or fossil fuels. So this is the way of the 
future. This is the way we have to go, and I hope that we can 
make this happen.
    With your intellectual capital, with your force of 
personality, help us make this happen.
    And with that, I adjourn this until after the votes--
recess. Excuse me, I recess this until after the vote.
    [Recess.]
    Mr. Inslee [presiding]. We will gavel our hearing back. 
Sorry about the delay. We appreciate your patience, and I am 
looking forward to my colleagues returning in a little bit as 
they return from the floor.
    [The prepared statement of Ms. Blackburn follows:]

    [GRAPHIC] [TIFF OMITTED] T1959A.004
    
    [GRAPHIC] [TIFF OMITTED] T1959A.005
    
    Mr. Inslee. We have a great panel today. I would like to 
introduce them, starting with my friend Bracken Hendricks, who 
is currently senior fellow at the Center for American Progress. 
Bracken specializes in energy and climate issues, and he was 
founding executive director of the Apollo Alliance and co-
author of the book, ``Apollo's Fire: Igniting America's Clean 
Energy Economy,'' which was an incredible feat to co-author 
considering that he had to drag the other co-author constantly. 
So that was amazing.
    Mr. Hendricks previously served, among other things, as 
special assistant to the Office of Vice President Al Gore.
    And, Bracken, thank you for your leadership for years on 
these subjects.
    Dr. Robert Pollin is our second witness. He is professor of 
economics and co-director of the Political Economy and Research 
Institute at the University of Massachusetts in Amherst. Dr. 
Pollin's research centers on macroeconomics, conditions for low 
wage workers in the U.S. and globally and analysis of financial 
markets, certainly timely. He is co-author of the recent 
report, ``Green Recovery: A Program to Create Good Jobs and 
Start Building a Low-Carbon Economy,'' which addresses exactly 
the subject of today's hearing.
    We thank you, Dr. Pollin.
    We want you to know that not all the members of this panel 
share disdain for economists. I happen to have a degree in 
that. So thank you for being here.
    Mr. Fred Redmond is the international vice president for 
human affairs for the United Steelworkers. As a founding member 
of the Blue Green Alliance and the Green Jobs for American 
campaign, the steelworkers have taken a true leading role in 
the labor movement in advocating for environmental protection 
and green job creation. He was named to the executive council 
of the AFL-CIO earlier this year.
    And please convey our thanks for your president's 
leadership on this in multiple occasions as well.
    Byron Kennard is the executive director of the Center For 
Small Business and the Environment, which he co-founded in 
1998. He is a longtime environmental advocate. He was awarded 
the leadership medal of the United Nations environmental 
program for his work in building the environmental movement. He 
is the author of, ``Nothing Can Be Done, Everything is 
Possible,'' a book of essays on social change. And he is a 
guest columnist for GreenBiz.com, FortuneSmallBusiness.com, 
BusinessWeek.com and other outlets.
    And we appreciate you being here. We need a little social 
change.
    Dr. Margo Thorning is executive vice president and chief 
economist for the American Council for Capital Formation. Dr. 
Thorning's work focuses on tax, environmental and competitive 
issues. She is the author of several books on these issues and 
has testified frequently to quite a number of congressional 
committees.
    Dr. Thorning, thank you for being here today.
    With that, we should start with Bracken Hendricks.

                 STATEMENT OF BRACKEN HENDRICKS

    Mr. Hendricks. Thank you very much, Congressman Inslee. I 
understand you are an author as well.
    I want to especially thank Chairman Markey and Ranking 
Member Sensenbrenner and all the members of the committee and 
the staff, who are an incredibly competent staff, as well.
    It is an honor to be here today to talk about a number of 
issues that are coming together and finding solutions that 
actually can start to address a number of interrelated issues. 
August saw the unemployment rate jump to 6.1 percent; 9.4 
million people are out of work. Clearly there is a significant 
financial crisis brewing. Housing values are declining, but 
there is a whole other sets issues that are also affecting the 
economy right now: Rising energy prices, coal prices for 
Appalachian coal have jumped 200 percent in a very short while; 
$600 billion flows out of the economy for imported oil; and of 
course, there is a brewing climate crisis which with inaction 
presents significant costs and significant long-term burdens to 
the economy.
    I am Bracken Hendricks. I am a senior fellow at the Center 
for American Progress and the Center for American Progress 
Action Fund. And we were honored to work with the University of 
Massachusetts Political Economy Research Institute and Dr. 
Robert Pollin, who is here, in producing a report called, 
``Green Recovery, a Program to Create Good Jobs and Start 
Building a Low-Carbon Economy.'' What we found as we looked at 
a package of investment in climate solutions, including 
renewable energy and energy efficiency, was that investing 
wisely in public infrastructure and in creating these markets, 
it is possible to build new industry, improve American 
competitiveness and create good jobs. This is not a substitute 
for global warming policy, but it is not cap and trade itself.
    What we are looking at here is the investment side of the 
equation. How do we invest in building these markets and 
creating these new industries? We looked at six strategies, 
three for energy efficiency, three for renewables, and we found 
that they create very significant jobs and economic 
opportunity. They create more jobs and they create more jobs at 
higher wages when compared either to a traditional program of 
economic stimulus, and so if we are to consider a package of 
stimulus, we may want to consider these sorts of investments 
that produce these other long-term benefits as they jump-start 
the economy and move us on to a path of recovery.
    We also compared those investments to investments in the 
oil industry and traditional energy sector. And I want to just 
focus in here with the bulk of my comments on why renewable 
energy and energy efficiency actually are a very, very 
strategic point of investment for rebuilding the economy and 
for creating new opportunities. Investing in energy efficiency 
and renewable energy should be central to any near-term 
economic package. They create new investment. This is a 
situation where public investment, strategically employed, can 
create, can crowd in, if you will, new private sector 
investment, helping to create markets, helping to create demand 
and helping to change the cost structure of businesses to 
create new opportunities.
    It also creates access to credit. If you look at financing 
mechanisms to invest in building retrofits. We are talking 
about creating new demand through these public investments for 
small businesses. And I am very pleased to share the stage 
today with a representative of small business. It is the 
lighting contractors, the insulators. These are the people who 
will be employed in a clean-energy economy. They will do the 
hard work. We call them green jobs, but these are really 
familiar jobs in professions that we know and that are at the 
bedrock of the American economy.
    And lastly, it is specifically focused on construction and 
manufacturing. These are very, very significant opportunities. 
They create good jobs, career ladders, and pathways into middle 
class professions.
    So there is a couple of structural reasons why focusing on 
energy efficiency and renewable energy makes good economic 
sense. They are relatively more labor-intensive than either 
consumption or investment in traditional energy systems. You 
are taking a dollar that you would otherwise spend on wasted 
energy and instead you are sinking it--and it would result in 
pollution--instead you are sinking that into skilled crafts 
people to retrofit buildings or advanced manufactured goods 
that operate at a higher level of efficiency. That is a smart 
investment. It is not just mindless spending. It is strategic 
spending. So turning this waste into skills is a very 
significant piece.
    Additionally, the domestic content is greater. If we 
compared the same investment in a consumption-based stimulus, 
just simply giving reacts to folks and 22 percent of average 
household expenditures under those circumstances would flow to 
imported goods. In a domestic green economic package, we are 
talking about something closer to 9 percent that would flow out 
of the economy. The bulk of the money stays in local 
communities. It reduces costs for business, very, very 
significantly. We have two times the energy intensity of our 
gross domestic product of the rest of--when compared with other 
industrial countries. It also creates more jobs overall, and 
they are very broad-based. So this is an opportunity to create 
career ladders and pathways into good jobs with appropriate 
training.
    I want to commend Representative Solis on her green jobs 
package that was in the recent energy bill. Linking this to 
training and workforce investment is a great opportunity bring 
people into good jobs.
    And lastly, it lowers the cost of action on climate 
eventually by bringing new products to market. By bringing 
these new technologies, like renewable energy, up the cost 
curve so they are in greater mass production it is going to 
drive down the cost of these new technologies in the long term.
    And let us see. I want to just also mention that public 
infrastructure is fundamentally community-based. These are 
local investments. They are very difficult to outsource. And so 
this is money that tends to stay within communities.
    The other point that I want to make is that there is a 
great deal of policy that we can act on very easily. There is a 
range of policies that are in my written testimony. I would 
encourage the members and the staff to look at the policies 
that we cite.
    I just want to very quickly touch on the story of the 
Weatherization Assistance Program as I close my remarks. The 
Weatherization Assistance Program has a cost-benefit ratio of 
$2.69 for every dollar invested because it produces savings for 
ratepayers, savings for small businesses, and it helps low-
income folks. It also creates 52 jobs for every million dollars 
invested. And but over the life of the program, there have been 
5.6 million homes that have been retrofit through this program, 
but there are 34 million homes that qualify for weatherization 
assistance. The authorization has been upwards of $700 million, 
but the appropriation has been about 2 and a quarter million 
dollars. So we are dramatically under-investing in something 
that clearly yields a positive cost benefit. It creates more 
jobs than many other forms of investment, and it saves low-
income ratepayers and some businesses money to reinvest in the 
community. This is a smart, strategic investment for the 
American economy. It is a good way to be growing our economy at 
a time of tremendous difficulty in driving new investment into 
construction and manufacturing jobs.
    Thank you very much for the time, and I appreciate your 
attention.
    [The statement of Mr. Hendricks follows:] 

    [GRAPHIC] [TIFF OMITTED] T1959A.006
    
    [GRAPHIC] [TIFF OMITTED] T1959A.007
    
    [GRAPHIC] [TIFF OMITTED] T1959A.008
    
    [GRAPHIC] [TIFF OMITTED] T1959A.009
    
    [GRAPHIC] [TIFF OMITTED] T1959A.010
    
    [GRAPHIC] [TIFF OMITTED] T1959A.011
    
    [GRAPHIC] [TIFF OMITTED] T1959A.012
    
    [GRAPHIC] [TIFF OMITTED] T1959A.013
    
    [GRAPHIC] [TIFF OMITTED] T1959A.014
    
    [GRAPHIC] [TIFF OMITTED] T1959A.015
    
    [GRAPHIC] [TIFF OMITTED] T1959A.016
    
    [GRAPHIC] [TIFF OMITTED] T1959A.017
    
    [GRAPHIC] [TIFF OMITTED] T1959A.018
    
    [GRAPHIC] [TIFF OMITTED] T1959A.019
    
    [GRAPHIC] [TIFF OMITTED] T1959A.020
    
    Mr. Inslee. Thank you, Bracken.
    Dr. Pollin.

               STATEMENT OF ROBERT POLLIN, Ph.D.

    Mr. Pollin. Thank you very much for having me.
    Thanks to Mr. Markey for inviting me, and Mr. 
Sensenbrenner, and the whole committee.
    I am Robert Pollin. I am professor of economics and co-
director of the Political Economy Research Institute at the 
University of Massachusetts at Amherst. I am also the co-author 
of this study that came out last week called ``Green Recovery'' 
that was done in conjunction with my friends at the Center for 
American Progress. And I want to acknowledge the outstanding 
work done by my friends, especially Bracken and Kit Batten in 
helping us produce this piece of work.
    I am going to actually go down the questions that Chairman 
Markey posed to me in the written invitation:
    Number one, do economic conditions justify such a program? 
I think we can--don't have to spend too much time on the 
economic conditions. We all know that unemployment has risen to 
6.1 percent. A year ago, it was 4.7 percent. People are also 
working fewer hours, taking pay cuts. They are discouraged. 
Those don't get reflected fully in the unemployment statistics.
    We know obviously what is going on in financial markets. 
Though this is not explicitly a financial market program--thank 
you for acknowledging my work on financial markets--it 
certainly can be integrated into a solution to conditions in 
financial markets because, number one, it is establishing a 
floor for overall demand in the economy, which is one of the 
main things we need, and number two, it is providing 
opportunities for a new, productive investment outlets. This is 
the key.
    I mean, the long-term problem with financial markets is 
excessive attention to speculative profit opportunities and not 
enough attention to long-term productive investments. So this 
is integrated into that solution.
    Okay. Why a green stimulus program? This is a $100 billion 
program over 2 years. And according to the modeling that we 
have done, it would create roughly 2 million jobs. There are 
six investment initiatives, three in the areas of energy 
efficiency and three renewables. The energy efficiency are 
building retrofits, which is in fact the most important single 
piece in terms of where we think money should be spent now; 
public transportation and freight rail; and smart grid 
electrical transmission system. Those are the energy efficiency 
areas. And the renewables are wind power, solar power, and 
biofuels.
    I want to emphasize that the way we have proposed this, the 
way we have modelled it, 70 percent of all of the spending is 
for efficiency. So that is certainly the bulk.
    What are the benefits of the program? Well, as Bracken 
said, the job creation is very widespread. I mean, we have that 
in the report. We go over in detail the types of jobs. People 
think that green jobs some how suggests something esoteric. 
They have never heard of it. Well, these are jobs for roofers, 
welders, electricians, machinists, accountants, secretaries, 
and, yes, research scientists. So it is across the board. It is 
a jobs program. We don't even have to call it green jobs. We 
just have to call it jobs. There are good jobs; there is a wide 
range of jobs.
    The 2 million job creation would--in the current job 
market, as we know, there are 9.4 million people unemployed 
now. That would drop the unemployment level to 7.4 million. If 
we consider that in today's economy, that would mean a fall in 
unemployment from 6.1 to 4.8 percent. And as Bracken said, it 
is particularly focused on construction and manufacturing. We 
know how hard construction has been hit. That is the other side 
of the financial crisis and the housing crisis, is the 
construction industry is flat. You have over half a million 
jobs having been lost over 2 years. This program would bring 
them back.
    It is very efficient as a jobs program. As we said, as 
Bracken said, this combination of investment focused primarily 
on energy efficiency would create 2 million jobs for the $100 
billion in expenditure. That is higher than what we got from 
the April 2008 stimulus, which would create about 1.7 million 
jobs. And it is dramatically higher; it is four times higher 
than what we would get through a similar expenditure in the oil 
industry.
    And as Bracken said, what are the two drivers here? It is 
not really that difficult to figure out. And you can be a two-
handed economist on this. It is domestic content and labor 
intensity, right? It means more jobs are created within the 
U.S. economy because they are focused there, and you have a 
higher proportion of employment relative to expenditures on 
non-employment, such as on materials, energy, shipping oil from 
Saudi Arabia to the United States.
    For the energy efficiency area, the domestic content is 
about 95 to 96 percent. That makes sense. When you think about 
retrofitting this building, it is not going to take a lot of 
imports to do that.
    Now, what about benefits in terms of energy savings, which 
is what Mr. Markey also asked me about? Very substantial. We 
think about a building like this, public building retrofits. 
The U.S. Council on Green Energy Building estimates that we 
have about 21 billion square feet of public building that could 
be retrofit on average at a $1.40 per square foot. So that is 
to retrofit and make energy efficient every single public 
building in this country would be roughly $30 billion or 
something less program. It would lower energy costs 20 to 30 
percent. If we then think about the same model for households, 
private individual homes, you can get the same 30 percent 
return over a matter of 3 years. So energy bills go down while 
you are creating jobs.
    Now, what about the funding in the short term, median term? 
We outline three different types of investment funds: $50 
billion in tax credits for business; $4 billion in loan 
guarantees, which then, of course, underwrite a much larger 
number of actual loans themselves; and $46 billion in direct 
spending. So notice that the majority of spending is going to 
promote private business.
    In the immediate term, we are talking about a fiscal 
stimulus, a deficit spending. Over the longer term, it would 
paid through by cap-and-trade revenue. The fiscal deficit is a 
problem. It is not the overriding problem. The fiscal deficit 
now as a proportion of GDP is well within range, certainly, of 
what we have had historically under these kinds of conditions.
    Now, finally, the broader benefits. Reduced demand for oil, 
it is going to exert downward pressure on oil. It is going to 
improve the trade balance, which will then improve our current 
account balance, too. The job creation will generate more tax 
revenues. It is going to channel funds to productive private 
investors, and finally, it will fight global warming.
    Thank you very much.
    [The statement of Dr. Pollin follows:] 

    [GRAPHIC] [TIFF OMITTED] T1959A.021
    
    [GRAPHIC] [TIFF OMITTED] T1959A.022
    
    [GRAPHIC] [TIFF OMITTED] T1959A.023
    
    [GRAPHIC] [TIFF OMITTED] T1959A.024
    
    [GRAPHIC] [TIFF OMITTED] T1959A.025
    
    [GRAPHIC] [TIFF OMITTED] T1959A.026
    
    [GRAPHIC] [TIFF OMITTED] T1959A.027
    
    [GRAPHIC] [TIFF OMITTED] T1959A.028
    
    [GRAPHIC] [TIFF OMITTED] T1959A.029
    
    [GRAPHIC] [TIFF OMITTED] T1959A.030
    
    Mr. Inslee. Thank you, Dr. Pollin.
    Mr. Redmond.

                   STATEMENT OF FRED REDMOND

    Mr. Redmond. Thank you, Congressman.
    First of all, Congressman, I want to thank you for being a 
consistent advocate of working families, not only working 
families in the great state of Washington but throughout this 
country. We thank you for your service.
    Mr. Chairman, my name is Fred Redmond. I am the 
International Vice President of Human Affairs for the United 
Steelworkers.
    Steelworkers is the largest industrial union in North 
America. We have 850,000 active members and 250,000 retirees 
that we are privileged to represent. We are also the dominant 
union in every energy-intensive and energy-producing industry 
throughout this country.
    Our union has long held the belief that good jobs and a 
clean environment go hand in hand. Steelworkers are here today 
because we endorse the ``Green Recovery'' report released by 
the Center for American Progress. And we applaud the Center for 
highlighting the economic and employment opportunities that can 
exist when significant investments are made in the green 
economy.
    The report highlights that an investment of $100 billion 
can mean 2 million jobs in the United States economy over a 2-
year period. They estimate that over 900,000 jobs in the 
construction industry and over 580,000 jobs in the industries 
that supply goods for wind turbines and building retrofits 
would be created with this investment. They also estimate that 
500,000 jobs would be created in the resell and wholesale 
industries as a result of increased capital from increased 
employment.
    And during this time, as our Nation continues to experience 
an economic downturn with falling financial markets and the 
highest unemployment in 4 years, policies that spur investment 
in the emerging green economy are more critical than ever. Our 
union and our members have experienced devastating job losses. 
Over the last 10 years, over 3.2 million manufacturing jobs 
have been lost as a result of unfair trade policies, 
outsourcing, and exporting of jobs instead of products. Many of 
the jobs have been lost from communities like Cleveland, Ohio; 
Buffalo, New York; Detroit, Michigan; and Baltimore, Maryland; 
and have gone to countries, like China and India, that have 
terrible, environmental and labor standards.
    Our union strongly believes that today's environmental 
challenges are tomorrow's economic opportunities. Evidence of 
this fact already surrounds us. In Germany, for example, 1.4 
million people are already employed in green sectors with about 
40,000 people employed solely in the wind energy industry. 
Increasingly more steel is consumed in Germany by the wind 
energy industry than any other except automotive.
    The green economy offers an opportunity to place the United 
States on a path toward energy independence. It also offers 
unique opportunities to revitalize our domestic manufacturing 
and construction industries. Some of those 2 million jobs in 
the Center for American Progress report will be for our 
Nation's steelworkers machinists, electricians, roofer, drivers 
and carpenters. And we have already seen this happen in States 
like Pennsylvania where, in 2004, the State adopted an 18 
percent renewable portfolio standard, and as a result, Gamesa, 
a Spanish-owned wind turbine company, decided to build its 
first North American plant in Pennsylvania. And because of the 
demand created by the RPS, today almost 1,000 steelworkers are 
employed in Gamesa plants outside of Philadelphia, building 
wind turbines on the site that was abandoned by a U.S. steel 
mill. State RPS drove Gamesa to invest in Philadelphia and, as 
a result, has helped to revitalize a community that was 
devastated by job loss.
    The green job change did not just stop at Gamesa. As a 
result of the demand by the wind industry for steel plate in 
2007, Arcelor Mittal Steel recalled 250 steelworkers back to 
work at its Burns Harbor, Indiana, plate mill to meet the 
demand. While these jobs are not specifically green jobs in 
nature, they serve a green purpose because the products that 
these men and women are making in this steel mill will be used 
in wind turbines. Likewise, component parts manufacturing, 
installation of turbines, maintenance and construction of knew 
transmission lines also serve a green purpose.
    This is what we mean when we talk about green jobs and 
overall greening of the United States economy. It is not just 
creating new jobs but also spurring growth in existing 
industries. So Steelworkers is ready to work to reverse the 
downward trend in manufacturing by creating clean-energy jobs 
while we fight to save the manufacturing jobs we have left.
    We believe that we are at a critical point in achieving 
these goals, and several opportunities exist right now. There 
are opportunities for American business to lead the world in 
clean energy and services. There are opportunities for American 
workers to thrive in a new generation of well-paid green-collar 
jobs. There are opportunities for American cities to become 
cleaner, healthier and more efficient places to live and work. 
And there are opportunities to stimulate the flow of private 
and public capital and a clean energy and energy efficiency 
initiative that create good-paying jobs across a wide spectrum 
of our economy.
    So the Steelworkers Union, we have worked with other labor 
unions, business, environmental, community groups on both the 
State and Federal level to develop and support clean energy 
policies that will encourage job creation with investment and 
domestic green technologies, energy efficiency, education, 
training, and we hope to continue to work with Congress on 
these vital issues through our national economy.
    Thank you, Mr. Chairman.
    [The statement of Mr. Redmond follows:] 

    [GRAPHIC] [TIFF OMITTED] T1959A.031
    
    [GRAPHIC] [TIFF OMITTED] T1959A.032
    
    [GRAPHIC] [TIFF OMITTED] T1959A.033
    
    Mr. Inslee. Thank you, Mr. Redmond.
    And congratulations to those folks getting back to work.
    Mr. Kennard.

                   STATEMENT OF BYRON KENNARD

    Mr. Kennard. Thank you, sir.
    Historically, small businesses have created 60 to 80 
percent of all net new jobs. This prowess continues even in the 
current economic downturn. In July of this year, for example, 
small firms added 50,000 new jobs to the private sector, which 
offset the 41,000 jobs dropped by larger companies. From this, 
we argue that if new green jobs are to be created, small 
business must be called on it create them.
    Moreover, two-thirds of all innovations are produced by 
entrepreneurial small businesses. According to SBA, small firms 
produce 13 times more patents than large firms. From this, we 
are argue that if green technology innovations are to be 
created, then small businesses must create them. In fact, that 
is the case. Something like 80 percent of all clean-tech 
companies are small firms.
    Small businesses are also the means used to deploy 
technology, deploy innovations throughout society. For example, 
thousands of small businesses distribute, sell and install and 
service air conditioning, heating, insulation, ventilation and 
lighting systems, now all available in energy-efficient forms. 
Thus, making America more energy-efficient and self-reliant 
creates enormous economic opportunity for small business.
    This is why the small business provisions in the Energy 
Independence and Security Act of 2007 were endorsed by the Air 
Conditioning Contractors of America, the Independent Electrical 
Contractors, the National Roofing Contractors Association, and 
the Plumbing-Heating-Cooling Contractors Association. These are 
not ordinarily people you find lined up at anti-growth rallies.
    An added plus is that these jobs can't be outsourced 
overseas because the work is all local. Thousands of small 
firms are now becoming more energy-efficient in order to cut 
costs. This is a big deal. Small business is half of the 
economy. It consumes half of all energy use for commercial and 
industrial purposes in this country, much of which is wasted.
    According to EPA's ENERGY STAR Small Business Program, 
small enterprises can save 30 percent on their energy bills 
through energy-efficiency upgrades. Many good models exist for 
making this happen; they are up and running successfully. These 
can and should be widely replicated. I will mention two.
    One is the Energy Stewardship Initiative of the National 
Automobile Dealers Association, NADA. Almost 750 auto dealers 
are now voluntarily greening their operations as part of this 
initiative. If all 19,700 members reduced their energy 
consumption by just 10 percent, that is the association's goal, 
they would save approximately $193 million in energy costs and 
eliminate more than 1 million tons of greenhouse gas emissions 
each year.
    Another device is called On-Bill-Financing, which makes 
small business energy efficiency as easy as falling off a log. 
Under On-Bill-Financing, an electrical utility offers upgrades 
to its small business customers and loans to pay for the 
upgrades. The energy savings are used to pay back the loan. So 
the monthly utility bill is no higher than it was before. And 
when the loan is paid off, the small business owners' utility 
bill is permanently lower. The big news here is that 
California's Public Utility Commission, in October of last 
year, ordered the State's utilities to begin offering On-Bill-
Financing to their small business and institutional customers 
beginning in 2009.
    Here is the icing on the cake. The small business half of 
the economy can be made energy efficient virtually overnight. 
All the technology needed is now available. Basically, these 
upgrades involve doing the same thing over and over in millions 
of workplaces. Examples: Installing improved lighting, better 
thermostats and occupancy sensors in bathrooms, offices and 
storerooms. Small stuff, but it adds up. Doing such things will 
save small business owners money at a time when they are being 
hit hard by soaring energy costs and struggling to cope. In 
this setting, the most important thing to do is to get the word 
out to small business owners that they possess practical, 
affordable options which can be exercised right now, not years 
from now.
    Here is where the Federal Government can help. In summary, 
I offer two suggestions. The ENERGY STAR Small Business Program 
and EPA provides small business owners all the information and 
technical assistance they need to exercise these options. But 
it is greatly underfunded. EPA is not very interested in small 
business on this front. Less than 1 percent of the ENERGY STAR 
budget is devoted to outreach to small business. It should be 
given the resources needed to perform the job and to make the 
small business half of the economy energy-efficient.
    Secondly, thanks to the House Small Business Committee and 
the Senate Small Business Committee, very good provisions about 
small business energy use were included in the Energy Policy 
Act of 2005 and the Energy Independence and Security Act of 
2007. Sadly, none of these have been implemented or funded, and 
we hope the select committee will help their colleagues on 
Appropriations understand the importance of actually funding 
these programs. They have laid the basis already for making 
half of the economy energy-efficient quickly.
    Thank you.
    [The statement of Mr. Kennard follows:] 

    [GRAPHIC] [TIFF OMITTED] T1959A.034
    
    [GRAPHIC] [TIFF OMITTED] T1959A.035
    
    [GRAPHIC] [TIFF OMITTED] T1959A.036
    
    [GRAPHIC] [TIFF OMITTED] T1959A.037
    
    [GRAPHIC] [TIFF OMITTED] T1959A.038
    
    [GRAPHIC] [TIFF OMITTED] T1959A.039
    
    [GRAPHIC] [TIFF OMITTED] T1959A.040
    
    [GRAPHIC] [TIFF OMITTED] T1959A.041
    
    [GRAPHIC] [TIFF OMITTED] T1959A.042
    
    Mr. Inslee. Thank you.
    Dr. Thorning.

               STATEMENT OF MARGO THORNING, Ph.D.

    Ms. Thorning. Thank you very much for the opportunity to 
appear before this committee.
    My name is Margo Thorning. I am chief economist for the 
American Council for Capital Formation, and I ask that my 
testimony be submitted for the record.
    I commend this committee for its focus on, what do we need 
to do further to stimulate the U.S. economy? Clearly we face 
serious challenges, GDP, real GDP has grown really at only 1 
percent over the year for the past four quarters, and 
employment was 6.1 percent last month. And prices have been 
rising, most recently at a rate of 5.4 percent. Some pundits 
fear that we are entering a period of stagflation with sluggish 
growth and rising prices. So I think it is important to focus 
on what the fundamental problems are with the U.S. economy and 
try to address those.
    Many people think that the housing crisis, the fall of 
housing prices, is what has caused most of the recent distress, 
unemployment and sluggish growth. Right now, 10 million people 
are under water in the sense that they owe more on their house 
than the house is worth. If housing prices fall another 15 
percent, we can expect to see 20 million homeowners under 
water. So one of the first challenges I think we need to do is 
keep an eye on the housing market and see whether we are going 
to need to intervene any more than we already have there. 
Martin Feldstein of Harvard has put forth a plan for a mortgage 
replacement proposal, which is detailed in my testimony, which 
could help put a floor under housing prices and keep them from 
falling further.
    The second thing that we need to do and that we have begun 
to do is try to stabilize financial markets. I think the 
actions of the Fed and the Treasury so far have shown resolve 
and shown that we are not going to let happen to the U.S. 
economy what happened to the Japanese economy in the 1990s. 
Japan failed to intervene, failed to act quickly after their 
real estate and housing bubble and financial markets collapsed. 
I think our regulators have learned from that.
    So I think we have already taken significant steps to try 
to bring stability to the financial markets, and if we keep an 
eye on what is going on in the housing situation, I think we 
have time now to wait. I think it is premature to enact further 
economic stimulus packages comparable to the one that was 
passed in February of this year. I think we need to wait and 
see what happens in terms of stability and see if the housing 
issue, which is our central problem, begins to resolve itself.
    Let me turn to brief comments on the CAP proposal to spend 
$100 billion over 2 years on various forms of green jobs. 
First, I think the cap analysis has got serious flaws. They 
used an input/output model rather than a traditional 
macroeconomic model or general equilibrium model. The model 
they used can't take account of changes in prices as they flow 
through the economy. It is an incomplete snapshot. It is a 
static analysis rather than a dynamic analysis.
    They propose to pay for the increased spending on 
renewables and other initiatives through a cap-and-trade system 
which would raise $75 billion to $200 billion a year. The ACCF 
did an analysis of the Lieberman-Warner bill in conjunction 
with the National Association of Manufacturers earlier this 
year. In that study, we found that, by 2014, the cost of the 
cap and trade bill would be about $78 billion a year, which is 
close to the number that CAP proposes to spend. And we found 
that the higher energy prices caused by, on unconventional 
fuel, caused by the cap and trade, actually reduced job growth 
compared to the baseline forecast by between 850,000 and almost 
2 million jobs. So we lost jobs, even though our study did pick 
up new green jobs because people were being encouraged to make 
use of nonconventional fuels. We did pick up green jobs, but on 
net, we lost jobs because of the higher energy prices that 
flowed through the economy exerted a drag on productivity and 
so forth. GDP was less as well.
    So I would like to ask that this study be submitted for the 
record.
    [The information follows:] 

    [GRAPHIC] [TIFF OMITTED] T1959A.043
    
    [GRAPHIC] [TIFF OMITTED] T1959A.044
    
    [GRAPHIC] [TIFF OMITTED] T1959A.045
    
    [GRAPHIC] [TIFF OMITTED] T1959A.046
    
    [GRAPHIC] [TIFF OMITTED] T1959A.047
    
    [GRAPHIC] [TIFF OMITTED] T1959A.048
    
    [GRAPHIC] [TIFF OMITTED] T1959A.049
    
    [GRAPHIC] [TIFF OMITTED] T1959A.050
    
    [GRAPHIC] [TIFF OMITTED] T1959A.051
    
    [GRAPHIC] [TIFF OMITTED] T1959A.052
    
    [GRAPHIC] [TIFF OMITTED] T1959A.053
    
    [GRAPHIC] [TIFF OMITTED] T1959A.054
    
    [GRAPHIC] [TIFF OMITTED] T1959A.055
    
    [GRAPHIC] [TIFF OMITTED] T1959A.056
    
    [GRAPHIC] [TIFF OMITTED] T1959A.057
    
    [GRAPHIC] [TIFF OMITTED] T1959A.058
    
    [GRAPHIC] [TIFF OMITTED] T1959A.059
    
    [GRAPHIC] [TIFF OMITTED] T1959A.060
    
    [GRAPHIC] [TIFF OMITTED] T1959A.061
    
    [GRAPHIC] [TIFF OMITTED] T1959A.062
    
    [GRAPHIC] [TIFF OMITTED] T1959A.063
    
    [GRAPHIC] [TIFF OMITTED] T1959A.064
    
    [GRAPHIC] [TIFF OMITTED] T1959A.065
    
    [GRAPHIC] [TIFF OMITTED] T1959A.066
    
    [GRAPHIC] [TIFF OMITTED] T1959A.067
    
    [GRAPHIC] [TIFF OMITTED] T1959A.068
    
    [GRAPHIC] [TIFF OMITTED] T1959A.069
    
    [GRAPHIC] [TIFF OMITTED] T1959A.070
    
    [GRAPHIC] [TIFF OMITTED] T1959A.071
    
    [GRAPHIC] [TIFF OMITTED] T1959A.072
    
    [GRAPHIC] [TIFF OMITTED] T1959A.073
    
    [GRAPHIC] [TIFF OMITTED] T1959A.074
    
    [GRAPHIC] [TIFF OMITTED] T1959A.075
    
    [GRAPHIC] [TIFF OMITTED] T1959A.076
    
    [GRAPHIC] [TIFF OMITTED] T1959A.077
    
    Ms. Thorning. Renewables already get the lion's share of 
Federal subsidies. That is detailed in Figure 2 and Table 2 of 
my testimony. I think it is probably not a good use of taxpayer 
money to accelerate the spending that we are already doing on 
renewables. Renewable energy is more expensive than 
conventional fuels. I have a table in my testimony that shows 
that solar, for example, solar electricity was, according to 
testimony by a GE representative, about 36 cents a kilowatt 
hour compared to about 7 cents for gas and 4 and a half cents 
for coal.
    Furthermore, if you take a look at states that make great 
use of renewables and have high renewable portfolios, like 
California and Texas, they have the highest electricity costs 
in the U.S. So I think more focus on pushing renewables right 
now is not appropriate because high energy costs are already 
exerting a significant drag on the U.S. economy.
    I do think there are ways we can encourage energy 
efficiency more than we do in a cost-effective way. One is to 
increase cost-recovery allowances so that we can depreciate 
more quickly energy-efficient investments. And we have a study 
on our Web site detailing how disadvantaged U.S. firms are in 
terms of cost recovery.
    When we need to accelerate research on carbon capture and 
storage, so that we can use the 400 years supply of coal we 
have here and hopefully reduce greenhouse gas emissions and 
develop plug-in vehicles that we will be able to plug in to 
coal-fired plants, thereby decreasing our dependence on foreign 
oil.
    We need to promote domestic energy sources by increasing 
access to onshore and offshore areas.
    And finally, to conclude, I think the U.S. economy does not 
need the one-two punch of high-cost renewables and a cap-and-
trade system.
    Thank you.
    [The statement of Ms. Thorning follows:] 

    [GRAPHIC] [TIFF OMITTED] T1959A.078
    
    [GRAPHIC] [TIFF OMITTED] T1959A.079
    
    [GRAPHIC] [TIFF OMITTED] T1959A.080
    
    [GRAPHIC] [TIFF OMITTED] T1959A.081
    
    [GRAPHIC] [TIFF OMITTED] T1959A.082
    
    [GRAPHIC] [TIFF OMITTED] T1959A.083
    
    [GRAPHIC] [TIFF OMITTED] T1959A.084
    
    [GRAPHIC] [TIFF OMITTED] T1959A.085
    
    [GRAPHIC] [TIFF OMITTED] T1959A.086
    
    [GRAPHIC] [TIFF OMITTED] T1959A.087
    
    [GRAPHIC] [TIFF OMITTED] T1959A.088
    
    [GRAPHIC] [TIFF OMITTED] T1959A.089
    
    [GRAPHIC] [TIFF OMITTED] T1959A.090
    
    Mr. Inslee. Thank you all.
    I will start, if I can. Maybe I can start with Dr. Pollin, 
and then anyone else who wants to join in.
    I wanted to ask, you, Dr. Pollin, how do you decide how to 
allocate the strategy between tax credits, loan guarantees, 
grant programs in the proposal?
    Maybe Bracken can address this, too. But what is the 
rationale for that particular allocation?
    Mr. Pollin. Well, the first rationale is I think there is 
actually universal agreement that we would like this over time 
to be primarily focused around the private sector. So the fact 
that we have the program--the main funding allocation is for 
tax credit. So that does lower the cost of capital for private 
business, small business included.
    Similarly, the loan guarantee program, the loan guarantee 
program offers a lot of opportunity for probably relatively low 
burden on the public fisc because of course the public fisc 
only pays when loans go into default.
    So, then, why do we even have any? We have $46 billion 
allocated to the public spending. Well, first and foremost, 
that is the fastest way to generate this recovery program.
    Right now, if a measure were to pass, we could get public 
building retrofits going right now. Number two. And as I said, 
if we take those estimates of the American Council on Green 
Buildings, to do all the public buildings in the country would 
be in the range of $26 billion to $29 billion. We could start 
that right now in a big way.
    Secondly, the public transportation. It is often said, 
well, if Americans love their cars so much they will never take 
public transportation. Well, actually, public transportation 
use has gone up by 5 percent over the past year, obviously 
correlated with the rise in oil prices. So another measure that 
we propose is public spending to increase availability of 
public transportation, lower fares and increase maintenance. So 
that is the basic mix.
    Mr. Inslee [presiding.] Bracken, did you want to add 
something to that or not?
    Mr. Hendricks. I wanted to actually, if I may, just speak 
briefly to the question of renewable energy and the subsidy 
that it has received.
    There are a number of subsidies that the fossil fuel 
industry has received consistently over time that are actually 
not contained in the analysis that Dr. Thorning was referring 
to. The exclusion of public power, inappropriate treatment of 
highway funding, exclusion of liability caps, the value of 
underwriting the risk associated with nuclear power, a range of 
costs associated to the investments in the Strategic Petroleum 
Reserve and dealing with fuel cycle costs to nuclear power.
    In a whole host of ways there are a number of very 
substantial investments that have been made in the traditional 
fossil fuel and existing mature energy industries over time, 
and these costs I think need to be given full consideration.
    I also would like to just point to the fact that renewable 
energy, when it is brought on line, it provides much greater 
predictability and stability in energy prices; and that 
essentially what we are doing is enabling a situation where 
capital investments can be made now in new technology that will 
lock in energy costs and prevent some of the spikes that have 
been going on. We are at a moment where we have just seen 200 
percent increases in Appalachian coal when we are sending over 
half a trillion dollars in oil imports.
    We had an opportunity to invest in the creation of new 
industries, drive these technologies down the cost curve. It is 
creating new manufacturing opportunities, new small business 
opportunities. And these are investments that stay within the 
domestic economy; and this a fundamental difference with the 
dollars that are spent on clean, renewable energy than those 
that are spent on energy imports.
    I also would just like to take a very brief moment to 
comment on the role of energy efficiency. Energy efficiency, 
which is the bulk of this package, this is 70 percent focused 
on energy efficiency which drives down the cost for businesses 
for consumers.
    There is an analysis by the American Council for an Energy 
Efficient Economy, which looked at just a basic suite of energy 
efficiency programs. And if, in 2001 when the Bush 
administration came in, they had implemented a full and 
consistent commitment to achieving energy efficiency across the 
American economy, today we would have realized $206 billion of 
energy cost savings as a result of moving these existing 
technologies into the market. Those are very real cost savings.
    So if we are looking at the impacts of costs on the 
economy, I would put to you that the combination of saved 
energy costs through energy efficiency and improved stability 
and reduced volatility of energy prices from renewables are a 
significant contribution to the American economy. And I just 
wanted to underscore those points.
    Thank you for your attention.
    Mr. Inslee. Thank you. If I can, while I still have the 
chair, at least in part, I want to ask Mr. Redmond, how does 
your membership look at these public investments? If I was 
going to ask them what is a more valuable public investment, 
$85 billion, loaning it to AIG or putting it into the steel 
going into everything we want to build.
    How would your members look at that issue?
    Mr. Redmond. Well, our members, one of the things that we--
or task that we took on as a union was to really educate our 
members, the workers throughout the AFL-CIO, on the future of 
the manufacturing sector and how the opportunity to revive the 
manufacturing economy in this country has come through the 
establishment of creating a green economy.
    I think that workers throughout this country, not just in 
my union, but workers generally in manufacturing, understand 
that the need to--that the possibility not only to do a 
fundamental, humane--we have a fundamental, humane 
responsibility to leave a clean planet for our children.
    Also, with these new technologies, it is going to 
revitalize the manufacturing base in this country. If you were 
to pose the question of investing in AIG in terms of investing 
toward a green economy, then I think the majority of workers in 
this country would choose investment, particularly in 
manufacturing, toward a green economy, because these are jobs 
that can't be outsourced, these are the type of jobs that can't 
be lost to insufficient trade agreements and these are jobs 
that provide a very, very critical responsibility that we have 
to our children and to our planet. And I think that more and 
more American workers are becoming aware of that fact.
    And it is not just directly related, as the example that I 
gave you with steel companies, it is not directly related 
toward a green economy. But it is the aspects that go into the 
green economy and the amount of products that are going to be 
needed in order to make that become a reality.
    Mr. Inslee. I thank you.
    And of course the good news is, a couple days ago we passed 
a bill that will move many of the things forward that this 
report talks about, and we have got some more work to come.
    Thank you very much.
    The Chairman [presiding]. The Chair recognizes the 
gentleman from Missouri, Mr. Cleaver.
    Mr. Cleaver. Thank you, Mr. Chairman.
    Dr. Pollin, I was very interested in your comments and in 
your submitted report with regard to the economy and the 
subject matter today. I was not--I was ambivalent on the 
stimulus package that we approved for a variety of reasons. In 
my real life, I am a United Methodist pastor, and I knew what 
was going to happen when people received those checks. They 
were not going to go buy new big screen televisions or 
refrigerators, all the things I heard here in Washington. I 
knew what they were going to do. They were going to put the 
extra money on their MasterCard payment, make a house payment, 
and that money was not going to turn over in the economy.
    Because I deal with real people, I asked Mr. Bernanke--I am 
on the Financial Services Committee. I asked Mr. Bernanke 
whether we needed another stimulus package when he appeared 
before our committee about 6 weeks ago; and he said that it 
remains a question that there may be a need for what I had said 
to him, ``stimulus 2.''
    Do you believe that if we had a stimulus package--I mean, 
you were saying you didn't think we needed one. But let us 
assume that all the smart people conclude that we do need a 
stimulus package--you know, the people who tell us what we 
ought to do because they are smarter, who appear before the 
Financial Services Committee--and we decide to do it. Would it 
be a good idea if we used that money to get a jump start, as a 
launching pad for creating the 2 million green jobs that I 
think we all--at least the panel and the two members of this 
committee remaining--believe that we will be able to create?
    I mean, let us take, for example, natural gas. If we 
created central fueling places in cities where natural gas 
could be used or--there are cities who are in need of 
infrastructure projects. If we can create green source systems, 
as we think we are going to do in my community in Missouri, in 
Kansas City, Missouri, and really begin to do this now instead 
of its being some futuristic goal; that if we have a stimulus 
package, could we not do two things at once--stimulate the 
economy and give a jump start to the creation of a green 
economy?
    Ms. Thorning. A very thoughtful question. And of course I 
have the highest respect for Ben Bernanke's analysis. And in 
fact I would tend to agree that we might need a stimulus 
package, but I think it is premature. And I think if we do need 
one there would be better ways to deploy $100 billion than 
trying to force it into alternative energies like solar, wind, 
photovoltaic, that are very expensive, that we have been 
funding.
    I was at the Department of Energy almost 30 years ago. I 
know I look too young for that.
    Mr. Cleaver. You do, you actually do.
    Ms. Thorning. But I was there 30 years ago, almost 30 years 
ago, and we were funding these projects very heavily back 30 
years ago. So these types of energy we hope some day may be 
commercially viable, but I think they are not there yet.
    Solar, for example, we can't store it; it is only practical 
in certain situations. Wind has to be backed up by conventional 
fossil fuel, so the cost of wind is really double the cost in 
my testimony.
    So if I had limited taxpayer money, I would try to focus it 
on the most--where you get the most bang for the buck. And I 
think--as I say in my testimony, I think it is premature to 
decide whether we need to spend even more taxpayer money to 
stimulate the economy.
    I think we ought to wait and see what may happen to 
financial markets, and then if the housing market doesn't begin 
to rebound, if I were going to spend some money, I would spend 
it on a plan like Martin Feldstein has put forth to try to keep 
people in their homes. People who are fighting to stay in their 
homes aren't going to be interested in insulating their house 
and that sort of thing, they are going to be trying hard to 
make the payments they need to stay there.
    So I would keep an eye on the economy--and your committee, 
I know you are doing that--and I would wait to see if by the 
next 2 or 3 months things aren't improving. But then I would 
take a look at how to help housing, because that is our central 
problem and that is the reason we have had so much turmoil in 
U.S. financial markets, which unfortunately now has spread to 
many of our trading partners.
    Mr. Cleaver. But--it is not a but; I agree, and I guess 
most of the experts agree that to solve the housing problem is 
to at least begin the healing of the economy.
    And I agree, we had 300--I think 300,000 first steps toward 
additional foreclosures last month. I can't remember the exact 
figures, 320,000, which means that this crisis is far from 
over. And there is no reason to believe that we are--that, as 
many are saying, let's keep the free market, it will correct 
itself, leave everything alone, anybody who invested in 
products that were not sound will pay for it and they won't do 
it again and everything is glorious, and we all sing Kumbaya.
    The truth of the matter is, I don't know if we can get a 
hand around the housing market. We have reinvigorated FHA. We 
beefed them up. FHA only had about 3 percent of the market, and 
now it is going to become a viable option for people buying 
homes.
    We increased--we are now allowing jumbo loans, some 
$600,000. I think we are doing things that we think are going 
to help. We thought Fannie Mae--in fact, we thought that was 
going to be a help as well, Fannie Mae and Freddie Mac.
    But maybe if we are talking about homes in the poor 
sections of towns, of cities, people might be better able to 
keep their homes if their homes were better insulated. I mean, 
if you look in the colder regions of the country, people are 
heating up their front yards and back yards and little areas 
over the roof because of how energy inefficient homes are.
    I am not Pollyanna, but I really wonder about losing this 
opportunity where perhaps there is a convergence of two things, 
the need to get the economy rolling again and the need to do, I 
think, a first step toward a green economy.
    Ms. Thorning. Well, if I could just say one more thing, of 
course we all want to see more energy efficiency as new houses 
are built. It is a question in my mind of what is the most best 
way to use taxpayer money, because this is our taxpayer money 
we are talking about. And if you try to accelerate what is 
already going on, which is considerable work on renewables and 
new initiatives in that direction, the Federal Government 
spending lots of money, as are States; and of course the 
renewable portfolio standards also accelerate that kind of 
transition.
    But one of the earlier witnesses mentioned the German 
economy with 1.4 million workers employed in green energy and 
44,000 in the wind energy business. I think we ought to take a 
look at how the German economy has performed. In recent years, 
since 2003, the German economy has grown on average at 1.2 
percent a year, and their unemployment rate has averaged 9.6 
percent a year.
    I think one reason the German economy is struggling and so 
sluggish is that they have very stringent environmental 
requirements, including trying to meet the Kyoto Protocol 
targets to reduce their greenhouse gas emissions; and they have 
directed a lot of their taxpayer money into very costly 
renewable energy. So it may be that the 44,000 German workers 
who are making windmills are doing fine, but 9.6 percent of 
their population is out of work and their economy is really in 
the doldrums.
    So I think, as an economist, I want the most bang for the 
buck. I want to achieve the best we can for all of our people. 
And if 10 million people are under water on their mortgages 
right now and if 20 million more home owners--if 20 million 
would go under water if housing prices fall another 15 percent, 
that is the most serious challenge we will face since the Great 
Depression. People who are owing more on their house than it is 
worth simply have very little incentive to stay in it.
    We will never break this downward spiral if we don't focus 
on stabilizing housing prices. So I believe while many of the 
goals are quite worthy in the CAP report, I think their 
analysis is fundamentally flawed because they used an 
inappropriate model. And I don't think we would see a net gain 
of 2 million jobs; I think we would see loss of jobs in other 
sectors as prices rose.
    And, of course--so, on balance, I think we need to hold 
back and wait and see how the economy is going to do; and then, 
if it isn't improving, put the resources into our fundamental 
problem, which is falling housing prices.
    Mr. Cleaver. Thank you.
    The Chairman. The gentleman's time has expired.
    Let us just have a brief discussion if we could about 
efficiency. Let us leave aside renewables for a second. Let us 
just focus on efficiency.
    Is it worth it to invest in efficiency? Do we get a big 
payback from moving that way? Is the short-term investment 
almost inevitably rewarded by a longer-term benefit to the 
individual, to the company, to the country?
    Dr. Pollin, could you deal with that question?
    Mr. Pollin. Well, the short answer is ``yes.'' The 
efficiency gains, as I documented and discussed, are very 
straightforward. We are using known technologies. We aren't 
thinking about futuristic technologies.
    We know that we can deploy workers because a lot of it is 
construction jobs. We know that 600,000 or so construction jobs 
have been lost over the last year. We know we can start these 
things immediately. We don't have to engage in land purchases, 
designing projects for infrastructure and so forth.
    So the answer is a very straightforward ``yes.''
    The Chairman. Okay.
    Dr. Thorning, what do you have to say to Mr. Pollin?
    Ms. Thorning. I think energy efficiencies ultimately are 
very desirable. The question is how fast do we get it and who 
pays for it.
    The U.S. economy, if you look at the DOE data, is getting 
more energy efficient by about 1.7 percent every year. Each 
dollar of GDP is generated with less energy every year. So we 
are making good strides in that direction.
    The question is, what is the best way to accelerate it. And 
as I mentioned, if we could take a look at the U.S. Federal Tax 
Code--and, for example, smart meters, which communicate between 
the electricity company and the customer, are depreciated real 
slowly here in the U.S.
    The Chairman. Good. That is what I am saying. Let's agree 
on that. Let's agree that we are going to work on it.
    We will put together a package that you, Dr. Thorning--it 
is called the Pollin-Thorning plan to invest in energy 
efficiency all across the country. And we could do that, don't 
you think?
    Ms. Thorning. But the question is, how much taxpayer money 
goes into this?
    The Chairman. How much does the taxpayer save as a 
consumer? If you think of the taxpayer as a consumer then, you 
know, I see Mr. Hendricks; he looks at this $9 billion tax 
break that the oil and gas industry gets each year. Well, 
obviously, the same consumer is actually subsidizing the oil 
and gas industry as they are getting tipped upside down at the 
pumps.
    So they are one and the same, right, the consumer and the 
taxpayer, when it comes to this whole energy sector?
    So could you deal with that, Mr. Hendricks, in terms of the 
relationship that exists between the incentives that are given 
for one, as opposed to the other, that is efficiency?
    Mr. Hendricks. Well, that is an excellent point. It is 
something that we document in the report.
    I mentioned earlier the difference in household 
expenditures. When a traditional stimulus is spent just to 
encourage consumption, 23 percent of that money flows out of 
the economy. If you invest in energy cost savings in an 
infrastructure, only 9 percent flows out of the economy. So 
that basically is money that stays within local communities.
    In addition to the sort of investments that we are talking 
about on improved transit spending. Dr. Thorning mentioned the 
smart grid. The economic benefits of improving our grid 
infrastructure are very, very substantial, and they cascade 
throughout the economy because they make the economy, as a 
whole, function more efficiently.
    I believe the Pacific Northwest Laboratories estimated the 
benefit at about $80 billion over 20 years of moving to a smart 
grid that has these kind of real-time pricing and abilities to 
manage and optimize proficiency. RAND Corporation estimates 
that at about $100 billion. That is very, very substantial new 
investment.
    If you look at how transit spending cascades throughout a 
community, you are making job access easier for working 
families, you are saving money that consumers would otherwise 
be spending on oil imports, and you are improving quality of 
life overall. So you are creating opportunities for new 
economic development that are very substantial.
    And the efficiency of our economy, we use about twice as 
much energy for every unit of GDP as our closest direct 
economic competitor. That, in itself, is a competitive 
disadvantage that we need to address. This is a chance to do it 
in a way that is also going to create benefits and growth.
    The Chairman. I agree with you 100 percent, Mr. Hendricks. 
That is the model that we have to go to.
    Mr. Redmond, let me go over to renewables here for a 
second. Somebody told me that it takes 26 tons of steel to 
build one wind turbine, 26 tons of steel.
    Now, that seems like a lot of jobs here in the United 
States, that seems like a lot of new opportunities for our 
country. And Dr. Thorning doesn't think that wind is yet 
efficient enough as a competing source of electricity, but the 
cost is certainly plummeting almost the same way that the cost 
of what we did when we got the policy--we had the policy wrong 
on cell phones. Going into 1993 we had analog, and we only had 
two companies doing it; and it was 50 cents a minute, and very 
few people had cell phones.
    But then, in 1994, the committee that Mr. Inslee and I 
served on, the Energy and Commerce Committee--I was the 
chairman of Telecommunications--we moved over 200 megahertz of 
spectrum and didn't let the first two companies bid on it. The 
third, fourth and fifth company that bid in each market then 
went digital and they lowered the price down to under 10 cents 
a minute, and now there are more cell phones than there are 
Americans, because you just changed the model.
    So if you predict the future by looking at today, you are 
going to have a very real problem. You have to have some 
confidence that this technology is going to come down and there 
will be a transition period.
    Talk to us a little bit about that and how it impacts the 
steelworkers and other blue collar workers across the country.
    Mr. Redmond. You are right, the number that we got is more 
like 20, 28 million pounds of steel.
    The Chairman. Twenty-eight tons of steel?
    Mr. Redmond. Twenty-eight tons of steel could go into the 
building of--construction of one windmill. And the two largest 
domestic steel companies in the United States, which are U.S. 
Steel and Mittal Steel, have been actively pursuing that 
market. But the markets do not exist here in the United States.
    We have had relationships with--I spoke in my report about 
Gamesa, which is a Spanish company, which this week is over in 
Canada because the Canadian Government is very, very interested 
in this sort of technology.
    But the two largest steel producers here in the United 
States are tuned up. They are ready to go. The building trades 
throughout the United States are investing within their 
training centers in order to teach workers, and they have been 
doing educational courses to train dislocated workers in this 
sort of technology. So the infrastructure is there with the 
steel companies in the American workforce to capitalize and 
take advantage of this.
    The Chairman. So if we had a national renewable electricity 
standard, if we mandated that 15 percent of all electricity by 
2020 had to come from renewables, what would that mean for the 
steelworkers? What would that mean for other workers across the 
country?
    Mr. Redmond. Well, it would be huge, not just for 
steelworkers. But with that sort of renewable standard, I mean, 
it would also have a boom in the construction industry. It 
would employ and generate the need and the capacity to train 
and employ thousands of electricians and people within the 
building trades.
    And the capability is there. The irony of this is that 
competing markets are coming to realize the necessity for us to 
go in this direction. And the disappointment to working 
families and to the American labor movement is that the U.S. 
Government and the corporations of the United States and--the 
investment is not just there. We haven't totally grasped upon 
this model where, if we don't feel we are going to grasp behind 
it soon, we are going to be left behind in this sort of 
technology.
    The Chairman. Thank you, Mr. Redmond.
    Dr. Pollin, Dr. Thorning points to the Lieberman-Warner 
climate change bill as a good example of why legislation in 
this area of controlling global warming is way too costly and 
will kill the economy.
    How do you respond to that?
    Mr. Pollin. Thanks very much. And thanks for the 
opportunity to address this point, because Dr. Thorning has 
made a couple references to the inappropriateness of the model 
we used to estimate the employment.
    Our model is a very simple model; I acknowledge that, and 
in fact I endorse it, obviously. Whatever we do within any 
modeling, you have to assume things, you have to build in 
assumptions; and my model has an absolute minimum number of 
assumptions. And the basic findings that fall out of it are 
that you are going to get a lot of jobs because of the 
increased labor intensity and the domestic content. That won't 
go away no matter how much we complicate the model.
    Now, by contrast, the model that Dr. Thorning has referred 
to is full of hidden assumptions that she makes no reference 
to. And in fact I have the full paper here. It is very unclear 
what the references are, and I won't go through all of them; 
but I want to get to the punch line, the conclusion of their 
model where Dr. Thorning says that this is going to have 
serious negative consequences with Lieberman-Warner, and they 
know that because of the general equilibrium model that they 
have built.
    Well, if you turn to page 12 of her testimony that shows 
the model and the results--and I am only going to refer to the 
high-cost case. So we see the GDP estimate of 2,014 is 16,100--
I mean, 16.1 trillion and so forth.
    I want to break that down just so we understand what is 
really in this model. It is very important to understand this.
    They begin with the 2005 level of national income, which is 
12.4 trillion; and then they have a baseline case without 
Lieberman-Warner. Without Lieberman-Warner, you come out with 
16.4 trillion. With Lieberman-Warner, high cost case, you come 
out with 16.1 trillion. It is the difference between a growth 
of 32 percent versus 30 percent, almost indiscernible. And I 
want to break this down further so it is clear, put it in terms 
that are real for people.
    Per capita income in 2005 is $41,300. And if we move their 
model--I am not even going to get into my criticism of the 
hidden assumptions; I am saying let's go with their conclusion. 
This is their conclusion that she was just referring to.
    Under the baseline situation--so we start at 2005 at 
$41,300. Their baseline estimate for 2014, without Lieberman-
Warner, is $50,930; with Lieberman-Warner, it is $49,900. 
Again, almost indiscernible from their own model, from her 
testimony, okay? And that takes no account of these factors 
that I was referring to, the increase in labor intensity, the 
increase in domestic content, the reduction in fossil fuel 
expenditure and a solution to global warming.
    The Chairman. Dr. Pollin, thank you for that answer. And I 
might note how proud we are in Massachusetts. You are 
University of Massachusetts. Thank you so much for being here.
    Mr. Pollin. I love UMass. Thank you.
    The Chairman. And I love UMass, and I love the fact that 
you are from UMass. And by the way, I also love the Boston 
Celtics; I love them with every bone in my body.
    But I would like to note that we are honored to have your 
mother and father in the audience, the owners of the Washington 
Wizards, Abe and Irene Pollin, sitting right over here in the 
front row. And we are very proud to have them here with us 
today as well.
    And I can understand your split allegiance on that.
    Mr. Pollin. No, not split.
    The Chairman. No, I mean, you like UMass, but not the 
Celtics. I know there is no love for the Celtics in your entire 
being. That I know.
    And let me go to you, Mr. Kennard, in terms of the small 
business aspect of this and the benefits that flow from the 
construction and efficiency industry investments. Could you 
deal with that question for a second?
    Mr. Kennard. On energy efficiency, I would like to point 
out that there are 27 million small businesses; they are half 
of the economy, and getting them made energy efficient doesn't 
require anything in the way of taxpayer support.
    If these businesses become energy efficient, they save 
money, they cut their energy bills. The hang-up is getting the 
information to them about the availability of practical, 
affordable operations for new lighting or whatever. And the 
difficulty has been getting their attention, because small 
business owners have many responsibilities and haven't focused 
much on energy costs. They have assumed they can't do anything 
about it. That is changing now because soaring energy prices 
are compelling small business owners to pay attention.
    There have been recent polls. Energy costs have displaced 
health care costs as a priority concern for small business 
owners. So they are really now taking it seriously. So the 
point is to get them the information and say, hey, you can do 
this now; you don't have to wait on government or the utilities 
or anybody else, you have got options now that will save you 
money.
    The Chairman. Thank you, Mr. Kennard. My time is expired.
    The Chair recognizes the gentleman from Washington State, 
Mr. Inslee.
    Mr. Inslee. Thank you. I think I have one question.
    Dr. Thorning, in your assessment did you factor in the 
damage to the economy that would be occasioned by global 
warming if it is not restrained?
    Ms. Thorning. That is an excellent question.
    Our study did not try to measure the harm that might ensue 
if global emissions don't fall. None of the other studies by 
EPA or EIA do that either. However, EPA released a study right 
after our study was released, looking at Lieberman-Warner, and 
they also analyzed the impact that would occur if the U.S. met 
the Lieberman-Warner targets to reduce emissions by 40 percent 
by 2030 and by 60 percent or so by 2050.
    EPA's analysis showed that unless China and India and other 
developing countries also got on a sharp path to reduce 
emissions that, by 2050--by 2100, global concentrations of 
CO<INF>2</INF> would be only 2 to 3 percent less. They would 
drop from about 730 parts per million to 727 parts per million.
    So EPA concluded that Lieberman-Warner would have no 
beneficial impact on the global greenhouse gas situation unless 
other countries participate. So that is something that needs to 
be kept in mind as we try to see how to cost effectively reduce 
greenhouse gas emissions.
    I would also like to address the points that Dr. Pollin 
made when he stated that the ACCF/NAM study was full of obscure 
assumptions. I would like to direct your attention to page 6 of 
the study where all the assumptions are laid out. And our study 
was one of the first to really spell out what assumptions were 
used when SAIC ran the NAM's model, the Department of Energy's 
own model.
    So we didn't hide a thing. And when you use realistic 
assumptions about how quickly nuclear power generation can come 
on line and how quickly carbon capture and storage can occur 
and what the construction costs for new generation are, you get 
results similar to us. EPA's scenario number 7 came up with the 
same results as ours did. They constrain nuclear constrained 
carbon capture.
    So I think it is inescapable that near-term targets and 
timetables to reduce carbon emissions, to switch away from 
fossil fuel to other types of energy would have a drag on the 
economy. And with respect to the question about the economic 
consequences of a bill like Lieberman-Warner, I do direct you 
to page 12 of the testimony where we show the absolute change 
compared to the baseline in household income, which is very 
substantial over the three time periods we looked at, as well 
as the employment impact. And that impact happens because 
energy prices have to rise sharply to meet these targets.
    Mr. Inslee. Dr. Thorning, excuse me, you have answered six 
questions so far I haven't asked. We do have some time 
constraints.
    I just have to say that it is always interesting to me when 
those who want to prevent America from solving global warming 
come to talk to us, they always ignore the fact that we will 
have economic costs associated with inaction. And they come and 
they urge us to do nothing and forget the fact that doing 
nothing will cost the U.S. economy millions of jobs and 
billions of dollars with the reduction of our agricultural 
output, our mitigation costs, changes in our infrastructure and 
health costs associated with a rising potential of infectious 
diseases.
    And it is amazing to me that economists will come to us and 
just totally ignore the costs of inaction. That is one point I 
want to make.
    Second, it is also amazing to me that people come, 
economists will come and say that if we do investments in new 
technologies that are not incumbent industries with millions of 
lobbyists running around Washington, DC, those costs are going 
to ruin the U.S. economy; but we can go ahead and do the costs 
for the incumbent industries that do have millions of dollars 
of lobbyists running around Washington, DC, like the coal and 
the nuclear industry. Those costs are just hunky-dory. I find 
that very interesting and shocking, but that is life.
    Mr. Inslee [presiding]. And with that, I would like to 
adjourn this committee hearing. And I want to thank all the 
witnesses for joining us in this important discussion. We look 
forward to great progress. Thank you very much.
    [Whereupon, at 4:24 p.m., the committee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T1959A.091
    
    [GRAPHIC] [TIFF OMITTED] T1959A.092
    
    [GRAPHIC] [TIFF OMITTED] T1959A.093
    
    [GRAPHIC] [TIFF OMITTED] T1959A.094
    
    [GRAPHIC] [TIFF OMITTED] T1959A.095
    
    [GRAPHIC] [TIFF OMITTED] T1959A.096
    
    [GRAPHIC] [TIFF OMITTED] T1959A.097
    
    [GRAPHIC] [TIFF OMITTED] T1959A.098
    
    [GRAPHIC] [TIFF OMITTED] T1959A.099
    
    [GRAPHIC] [TIFF OMITTED] T1959A.100
    
    [GRAPHIC] [TIFF OMITTED] T1959A.101
    
    [GRAPHIC] [TIFF OMITTED] T1959A.102
    
    [GRAPHIC] [TIFF OMITTED] T1959A.103
    
    [GRAPHIC] [TIFF OMITTED] T1959A.104
    
    [GRAPHIC] [TIFF OMITTED] T1959A.105
    
    [GRAPHIC] [TIFF OMITTED] T1959A.106
    
    [GRAPHIC] [TIFF OMITTED] T1959A.107
    
    [GRAPHIC] [TIFF OMITTED] T1959A.108
    
    [GRAPHIC] [TIFF OMITTED] T1959A.109
    
    [GRAPHIC] [TIFF OMITTED] T1959A.110
    
    [GRAPHIC] [TIFF OMITTED] T1959A.111
    
    [GRAPHIC] [TIFF OMITTED] T1959A.112
    
    [GRAPHIC] [TIFF OMITTED] T1959A.113
    
    [GRAPHIC] [TIFF OMITTED] T1959A.114
    
    [GRAPHIC] [TIFF OMITTED] T1959A.115
    
    [GRAPHIC] [TIFF OMITTED] T1959A.116
    
    [GRAPHIC] [TIFF OMITTED] T1959A.117
    
    [GRAPHIC] [TIFF OMITTED] T1959A.118
    
    [GRAPHIC] [TIFF OMITTED] T1959A.119
    
    [GRAPHIC] [TIFF OMITTED] T1959A.120
    

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
